 Department of Health and Human Services
                    OFFICE OF
               INSPECTOR GENERAL


   MEDICAID HOSPICE GENERAL
INPATIENT PAYMENTS TO HOME AND
HOSPICE CARE OF RHODE ISLAND DID
 NOT ALWAYS MEET FEDERAL AND
      STATE REQUIREMENTS




   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                                     George A. Nedder
                                                      Acting Regional
                                                     Inspector General

                                                      September 2013
                                                       A-01-13-00002
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                     EXECUTIVE SUMMARY

 Medicaid hospice general inpatient payments to Home and Hospice Care of Rhode Island
 did not always meet Federal and State requirements, resulting in an overstatement of
 approximately $28,000 ($17,000 Federal share) from January 2007 through December
 2010.


WHY WE DID THIS REVIEW

A prior Office of Inspector General review found Medicaid overpayments to hospice providers
that submitted and received reimbursement for claims that did not meet the requirements for
general inpatient care and should have been billed as routine home care. All of the unallowable
services were provided in a nursing home setting. Therefore, we conducted this review of the
Rhode Island Executive Office of Health and Human Services, Office of Medicaid’s (State
agency), payments to Home and Hospice Care of Rhode Island for hospice general inpatient
services.

The objective of this review was to determine whether the State agency made Medicaid
payments for hospice general inpatient services to Home and Hospice Care of Rhode Island in
accordance with Federal and State regulations.

BACKGROUND

The State agency is responsible for administering the Rhode Island Medicaid program in
compliance with Federal and State statutes and administrative policies. State agencies have the
option of offering hospice care as a benefit to eligible Medicaid members.

A hospice is a public agency, private organization, or a subdivision of either that is primarily
engaged in providing care to terminally ill individuals. The hospice must provide services for
the palliation and management of the terminal illness and related conditions. Each day hospices
classify this care under four levels: (1) routine home care, (2) continuous home care, (3)
inpatient respite care, and (4) general inpatient care. In order to qualify for reimbursement at the
general inpatient care level, the hospice must document that a beneficiary’s need for pain control
or chronic symptom management is beyond the routine home care level.

Home and Hospice Care of Rhode Island is a certified Medicare and Medicaid hospice provider
located in Providence, Rhode Island. Home and Hospice Care of Rhode Island’s Philip Hulitar
Inpatient Center (Hulitar) is a 24-bed certified facility and the only freestanding inpatient hospice
provider located in Rhode Island. Home and Hospice Care of Rhode Island also provides
hospice general inpatient care in hospitals and skilled nursing facilities.

The State agency made payments for hospice general inpatient care to Home and Hospice Care
of Rhode Island totaling $914,147 for 213 claims during calendar years 2007 through 2010. At
our request, the State agency performed a medical review of 43 of the hospice general inpatient
claims totaling $292,428.
Medicaid Hospice General Inpatient Payments to Home and Hospice Care of Rhode Island
Did Not Always Comply With Federal and State Requirements (A-01-13-00002)                       i
WHAT WE FOUND

Medicaid hospice general inpatient care payments did not always meet Federal and State
requirements. Specifically, 15 of the 43 claims we reviewed did not meet the requirements for
the general inpatient care level and should have been billed at the routine home care level. This
resulted in an overpayment of $28,321 ($17,114 Federal share). These errors occurred because
Home and Hospice Care of Rhode Island and the State agency did not have adequate internal
controls.

WHAT WE RECOMMEND

We recommend that the State agency:

    •   refund $17,114 to the Federal government;

    •   strengthen internal controls, such as issuing guidance to hospices that better define the
        circumstances for billing at the general inpatient care level; and

    •   consider performing additional medical reviews of hospice general inpatient care services
        performed in the nursing home setting.

HOME AND HOSPICE CARE OF RHODE ISLAND COMMENTS

In written comments on our draft report, Home and Hospice Care of Rhode Island generally
accepted our general inpatient care findings at Hulitar and skilled nursing facilities. However,
Home and Hospice Care of Rhode Island stated that it reserves the right to discuss one case with
the State’s medical reviewer.

In light of our findings, Home and Hospice Care of Rhode Island stated that it has instituted
procedures to ensure that it provides and bills for the appropriate level of care.

OFFICE OF INSPECTOR GENERAL RESPONSE

We maintain our findings are valid. However, after reviewing the Home and Hospice Care of
Rhode Island comments, we are deferring the one case at Hulitar for further discussion between
the State agency and Home and Hospice Care of Rhode Island. We modified our finding for this
case and adjusted our monetary recommendation accordingly.

We also acknowledge the procedures that Home and Hospice Care of Rhode Island has instituted
to address our findings.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our findings.


Medicaid Hospice General Inpatient Payments to Home and Hospice Care of Rhode Island
Did Not Always Comply With Federal and State Requirements (A-01-13-00002)                       ii
                                                     TABLE OF CONTENTS

INTRODUCTION .......................................................................................................................1

           Why We Did This Review ...............................................................................................1

           Objective ..........................................................................................................................1

           Background ......................................................................................................................1
                 The Medicaid Program ........................................................................................1
                 Hospice Care ........................................................................................................1
                 Hospice General Inpatient Care ...........................................................................2
                 Home and Hospice Care of Rhode Island ............................................................2

           How We Conducted this Review .....................................................................................2

FINDINGS ...................................................................................................................................2

           Hospice General Inpatient Level-of-Care Requirements .................................................3

           Hospice Claims Did Not Always Meet Level-of-Care Requirements .............................3
                 Hulitar Hospice General Inpatient Claims ...........................................................3
                 Skilled Nursing Home Hospice General Inpatient Claims ..................................4
                 Hospital Hospice General Inpatient Claims .........................................................4

           Conclusion .......................................................................................................................4

RECOMMENDATIONS .............................................................................................................5

HOME AND HOSPICE CARE OF RHODE ISLAND COMMENTS.......................................5

OFFICE OF INSPECTOR GENERAL RESPONSE ..................................................................5

STATE AGENCY COMMENTS ................................................................................................5

APPENDIXES

           A: Audit Scope and Methodology ..................................................................................6

           B: Related Office of Inspector General Reports .............................................................8

           C: Home and Hospice Care of Rhode Island Comments ................................................9

           D: State Agency Comments ............................................................................................15


Medicaid Hospice General Inpatient Payments to Home and Hospice Care of Rhode Island
Did Not Always Comply With Federal and State Requirements (A-01-13-00002)                                                                  iii
                                          INTRODUCTION

WHY WE DID THIS REVIEW

A prior Office of Inspector General review found Medicaid overpayments to hospice providers
that submitted and received reimbursement for claims that did not meet the requirements for
general inpatient care and should have been billed as routine home care. All of the unallowable
services were provided in a nursing home setting. Therefore, we conducted this review of the
Rhode Island Executive Office of Health and Human Services, Office of Medicaid’s (State
agency), payments to Home and Hospice Care of Rhode Island for hospice general inpatient
services.

OBJECTIVE

Our objective was to determine whether the State agency made Medicaid payments for hospice
general inpatient services to Home and Hospice Care of Rhode Island in accordance with Federal
and State regulations.

BACKGROUND

The Medicaid Program

The Medicaid program provides medical assistance to low-income individuals and individuals
with disabilities (Social Security Act, Title XIX). The Federal and State Governments jointly
fund and administer the Medicaid program. At the Federal level, the Centers for Medicare &
Medicaid Services (CMS) administers the program. Each State administers its Medicaid
program in accordance with a CMS-approved State plan. Although the State has considerable
flexibility in designing and operating its Medicaid program, it must comply with applicable
Federal requirements.

The State agency is responsible for administering the Rhode Island Medical Assistance program
(the Rhode Island Medicaid program).

Hospice Care

Hospice care is an optional benefit under the Medicaid program. A hospice is a public agency,
private organization, or a subdivision of either that is primarily engaged in providing care to
terminally ill individuals. The hospice must provide services for the palliation and management
of the terminal illness and related conditions. Each day hospices classify care under four levels:
(1) routine home care, (2) continuous home care, (3) inpatient respite care, and (4) general
inpatient care. In addition to basic hospice services, short-term general inpatient care may be
provided in a hospice inpatient unit, general inpatient hospital, or nursing facility.




Medicaid Hospice General Inpatient Payments to Home and Hospice Care of Rhode Island
Did Not Always Comply With Federal and State Requirements (A-01-13-00002)                     1
Hospice General Inpatient Care

The State agency reimburses hospices an amount applicable to the type and intensity of the
services furnished to the beneficiary for each day. In order to qualify for reimbursement at the
general inpatient care level, the hospice must document that a beneficiary’s need for pain control
or chronic symptom management is beyond the routine home care level.

Hospice general inpatient care may be provided to residents of a skilled nursing facility (SNF)
provided that their services are furnished in accordance with each patient’s plan of care.

Home and Hospice Care of Rhode Island

Home and Hospice Care of Rhode Island is a certified Medicare and Medicaid hospice provider
located in Providence, Rhode Island. Home and Hospice Care of Rhode Island’s Philip Hulitar
Inpatient Center (Hulitar) is a 24-bed certified facility and the only freestanding hospice inpatient
provider located in Rhode Island. Home and Hospice Care of Rhode Island also provides
hospice general inpatient care in hospitals and SNFs.

HOW WE CONDUCTED THIS REVIEW

For the period from November 2012 through May 2013, we conducted site visits in Rhode Island
at Home and Hospice Care of Rhode Island in Providence and the State agency’s offices in
Cranston and Warwick. We requested that the State agency conduct a medical review of 43
judgmentally selected claims totaling $292,428 for 25 beneficiaries that received hospice general
inpatient care. As part of the selection process, we included beneficiaries that had inpatient stays
at Hulitar, SNFs, and a hospital.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains the details of our audit scope and methodology.

                                              FINDINGS

Medicaid hospice general inpatient care payments did not always meet Federal and State
requirements. Specifically, 15 of the 43 claims we reviewed did not meet the requirements for
the general inpatient care level and should have been billed at the routine home care level. This
resulted in an overpayment of $28,321 ($17,114 Federal share). These errors occurred because
Home and Hospice Care of Rhode Island and the State agency did not have adequate internal
controls.




Medicaid Hospice General Inpatient Payments to Home and Hospice Care of Rhode Island
Did Not Always Comply With Federal and State Requirements (A-01-13-00002)                       2
HOSPICE GENERAL INPATIENT LEVEL-OF-CARE REQUIREMENTS

The Rhode Island Department of Human Services’ Medical Assistance Program Hospice
Manual (Manual) states that for each day that a Medicaid beneficiary is under the care of a
hospice the hospice will be reimbursed an amount applicable to the type and intensity of the
services furnished for that day.

The Manual further states that hospice routine home care is for beneficiaries who require hospice
services but need less than 8 hours of care per day. The State agency covers hospice general
inpatient care when it is necessary for pain control or acute symptom management.

Each hospice beneficiary’s clinical record must contain patient assessments, clinical notes,
responses to medications, symptom management, treatments, and services (42 CFR § 418.104).

HOSPICE CLAIMS DID NOT ALWAYS MEET LEVEL-OF-CARE REQUIREMENTS

Hospice general inpatient care payments did not always meet Federal and State requirements.
Specifically, 15 of the 43 claims we reviewed did not meet the requirements for the general
inpatient care level and should have been billed at the routine home care level. This resulted in
an overpayment of $28,321 ($17,114 Federal share). These errors occurred because Home and
Hospice Care of Rhode Island and the State agency did not have adequate internal controls.

Hulitar Hospice General Inpatient Claims

Home and Hospice Care of Rhode Island submitted 28 claims totaling $220,749 for beneficiaries
that received 366 days of hospice general inpatient services at the Hulitar hospice inpatient
facility. The average length of service for beneficiaries totaled 28 days, and the hospice general
inpatient care for the beneficiaries ranged from 4 to 62 days.

Of the 28 claims for hospice general inpatient care, 4 claims did not contain sufficient
documentation, noting increased pain and symptom management care symptoms, to justify
changing the level of care from “routine home care” (a daily charge of $143) to “general
inpatient care” (a daily charge of $636). The following are examples of the State agency making
payments for hospice services at the incorrect level of care:

    •   A beneficiary received 18 days of general inpatient services from September through
        October 2009. The medical records did not document an increase of pain or symptom
        management services, and the beneficiary’s hospice general inpatient services involved
        routine hospice care for pain and symptom management. For example, on 2 separate
        days, the physician’s notes specifically state that the beneficiary was not appropriate for
        the general inpatient level of care. The beneficiary died in November 2011.

    •   A beneficiary received 7 days of general inpatient services from April through May 2007.
        However, Home and Hospice Care of Rhode Island was unable to locate this
        beneficiary’s medical records for the 7 days of general inpatient services. The
        beneficiary died in June 2007.
Medicaid Hospice General Inpatient Payments to Home and Hospice Care of Rhode Island
Did Not Always Comply With Federal and State Requirements (A-01-13-00002)                       3
These types of errors resulted in overpayments of $11,902.

Skilled Nursing Home Hospice General Inpatient Claims

Home and Hospice Care of Rhode Island submitted 12 hospice claims totaling $50,980 for
general inpatient care claims in SNFs. 1 Beneficiaries received 86 days of hospice general
inpatient services. The average length of service for these beneficiaries totaled 8 days, and the
hospice general inpatient care for the beneficiaries ranged from 2 to 21 days.

Of the 12 claims for hospice general inpatient care in the SNFs, 11 claims at 9 different SNFs did
not contain sufficient documentation of increased pain and symptom management that would
justify changing the level of care from “routine home care” (a daily charge of $143) to “general
inpatient care” (a daily charge of $636).

These types of errors resulted in overpayments of $16,419.

Hospital Hospice General Inpatient Claims

Home and Hospice Care of Rhode Island submitted two hospice claims that totaled $19,925 for
general inpatient care services provided in the hospital setting. The two claims involved one
beneficiary that received 32 days of consecutive hospice general inpatient services. Supporting
records documented an increase in the beneficiary’s pain and symptom management; therefore,
the level of care was correct.

CONCLUSION

As a result of the overpayments, the State agency’s Federal claim for Medicaid payments made
to Home and Hospice Care of Rhode Island for the period from January 2007 through December
2010 was overstated by a total of $28,321 ($17,114 Federal share). These errors occurred
because Home and Hospice Care of Rhode Island and the State agency did not have adequate
internal controls.

Home and Hospice Care of Rhode Island officials stated that they planned to strengthen internal
controls to reduce future billing errors.




1
 We initially identified 13 hospice general inpatient claims provided in SNFs. However, one claim totaling $774
had been coded incorrectly as a general inpatient claim instead of a hospice “room and board claim.” The State
agency had correctly reimbursed this claim at the hospice room and board rate.

Medicaid Hospice General Inpatient Payments to Home and Hospice Care of Rhode Island
Did Not Always Comply With Federal and State Requirements (A-01-13-00002)                                   4
                                      RECOMMENDATIONS

We recommend that the State agency:

    •   refund $17,114 to the Federal government;

    •   strengthen internal controls, such as issuing guidance to hospices that better define the
        circumstances for billing at the general inpatient care level; and

    •   consider performing additional medical reviews of hospice general inpatient care services
        performed in the nursing home setting.

HOME AND HOSPICE CARE OF RHODE ISLAND COMMENTS

In written comments on our draft report, Home and Hospice Care of Rhode Island generally
accepted our general inpatient care findings at Hulitar and SNFs. However, Home and Hospice
Care of Rhode Island stated that it reserves the right to discuss one case with the State’s medical
reviewer.

In light of our findings, Home and Hospice Care of Rhode Island stated that it has instituted
procedures to ensure that it provides and bills for the appropriate level of care. Home and
Hospice Care of Rhode Island’s comments are included in their entirety as Appendix C.

OFFICE OF INSPECTOR GENERAL RESPONSE

We maintain our findings are valid. However, after reviewing the Home and Hospice Care of
Rhode Island comments, we are deferring the one case at Hulitar for further discussion between
the State agency and Home and Hospice Care of Rhode Island. We modified our finding for this
case and adjusted our monetary recommendation accordingly.

We also acknowledge the procedures that Home and Hospice Care of Rhode Island has instituted
to address our findings.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our findings. The State
agency’s comments are included in their entirety as Appendix D.




Medicaid Hospice General Inpatient Payments to Home and Hospice Care of Rhode Island
Did Not Always Comply With Federal and State Requirements (A-01-13-00002)                       5
                   APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

We limited our review to Medicaid paid claims for hospice general inpatient care that were
subject to the State agency payment requirements. The State agency made hospice general
inpatient payments to Home and Hospice Care of Rhode Island totaling $914,147 for 213 claims
during calendar years 2007 through 2010.

We requested that the State agency conduct a medical review of 43 judgmentally selected claims
totaling $292,428 for 25 beneficiaries out of the claims for hospice general inpatient care.

We analyzed the reimbursed claims by beneficiary place of service in a hospice inpatient unit,
general inpatient hospital, and SNF locations as part of a judgmental claim selection process.
We then selected at least one beneficiary from each place of service location and reviewed all of
the beneficiary’s hospice general inpatient care claims. As part of the selection process, we
included beneficiaries that had inpatient stays from 1 day to 62 days.

In performing our review, we established reasonable assurance that the claims data were
accurate. However, we did not assess the completeness of the Rhode Island paid claims file from
which we obtained the data. We limited our review of internal controls to obtaining an
understanding of State agency’s procedures for reimbursing hospice services and hospices’
procedures for billing general inpatient services provided to hospice beneficiaries.

We performed fieldwork in November 2012 through May 2013 at State agency offices in
Cranston and Warwick, Rhode Island, Home and Hospice Care of Rhode Island located in
Providence, Rhode Island, and the CMS Regional Office in Boston, Massachusetts.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed Federal and State requirements;

    •   held discussions with State agency officials to gain an understanding of the hospice
        program and the State agency’s role in reimbursing hospice claims;

    •   evaluated State agency payment files to identify 382 hospice claims for general inpatient
        care totaling $1,457,273 paid to 8 hospices provided to Medicaid beneficiaries in
        calendar years 2007 through 2010;

    •   identified 213 paid claims from Home and Hospice Care of Rhode Island hospice for
        $914,147 for hospice general inpatient care provided at skilled nursing facilities, general
        inpatient hospitals, and a hospice inpatient unit;



Medicaid Hospice General Inpatient Payments to Home and Hospice Care of Rhode Island
Did Not Always Comply With Federal and State Requirements (A-01-13-00002)                      6
    •   reviewed hospice and nursing home billing invoices and remittance advices to validate
        payment information and determine whether the Home and Hospice Care of Rhode Island
        correctly billed the sampled claims;

    •   selected a judgmental sample of 43 claims for 488 general inpatient days totaling
        $292,428 for 25 beneficiaries;

    •   requested the State agency to perform a medical review of the selected judgmental
        sample of 43 claims;

    •   conducted site visits at Home and Hospice Care of Rhode Island to discuss hospice
        internal controls and determine the place of service prior, during, and after the general
        inpatient stay;

    •   evaluated hospice contracts with SNFs and hospitals;

    •   verified whether various hospice employees had been excluded from federally funded
        health programs; and

    •   discussed the findings with the State agency and CMS.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Medicaid Hospice General Inpatient Payments to Home and Hospice Care of Rhode Island
Did Not Always Comply With Federal and State Requirements (A-01-13-00002)                       7
       APPENDIX B: RELATED OFFICE OF INSPECTOR GENERAL REPORTS

                                                                                           Date
Report Title                                                             Report Number     Issued
Rhode Island Hospice General Inpatient Claims and Payments               A-01-12-00002     08/13/12
Did Not Always Meet Federal and State Requirements
Medicare Hospice: Use of General Inpatient Care                          OEI-02-10-00490   05/03/13




Medicaid Hospice General Inpatient Payments to Home and Hospice Care of Rhode Island
Did Not Always Comply With Federal and State Requirements (A-01-13-00002)                     8
               APPENDIX C: HOME AND HOSPICE CARE OF RHODE ISLAND COMMENTS
                                                                                       1085 North Main Street

              Home & Hospice Care                                                      Providence, Rl 02904
                                                                                       401.415.4200
                   OF      RHODE             ISLAND
                                                                                       www.hhcri.org



                                                                                       Diana Franchitto
                                                                                       President & CEO

    July 1, 2013



    Report Number: A-01-13-00002

    Mr. David Lamir
    Acting Regional Inspector General for Audit Services
    Office of Inspector General
    Office of Audit Services, Region I
    JFK Federal Building
    15 New Sudbury Street, Room 2425
    Boston, MA 02203

    Dear Mr. Lamir,

    Home & Hospice Care of Rhode Island (HHCRI) welcomes this opportunity to respond to the
    June 2013 OIG report titled: "Medicaid Hospice General Inpatient Payments to Home and
    Hospice Care ofRhode Island Did Not Always Meet Federal and State Guidelines".

                                                     Background

    • 	 Home & Hospice Care of Rhode Island (HHCRI), the major teaching affiliate for hospice
        and palliative medicine of the Warren Alpert Medical School ofBrown University, is the
        largest hospice in Rhode Island and the second oldest in the nation. For more than three
        decades, HHCRI has been a leader in hospice and palliative care, compassionately and
        skillfully providing comprehensive medical, emotional and spiritual care. With a vision to
        enable patients, their families and loved ones to have a meaningful experience during a
        difficult time, HHCRI helps people live out their lives with comfort and dignity.
    • 	 The OIG report details findings from the years 2007-2010 . During that time period, HHCRI
        provided high quality, interdisciplinary care to over 11,355 terminally ill patients and their
        families regardless of their ability to pay.
    • 	 5,517 patients received some days of GIP care during that time period.
    • 	 Beginning in 2009, HHCRI embarked on a major reorganization, including personnel
        changes for 6 ofthe 7 Senior Leadership positions (including the CEO). All current Senior
        Leaders are acutely aware of hospice compliance issues and are dedicated to maintaining
        HHCRI' s culture of compliance.
    • 	 HHCRI provides care to an average of 430 patients each day. Patients in our care may reside
        at home, in LTC facilities, in a hospital or in our 24-bed inpatient unit, the Philip Hulitar




An Affiliate of Home Care & Hospice of New England
' 	 Mr. David Lamir
    Acting Regional Inspector General for Audit Services
    Page2
    July 1, 2013



      Inpatient Center. Home & Hospice Care of Rhode Island has the only inpatient hospice unit
      in the state of Rhode Island.
  • 	 Currently HHCRI has 10 Medical Directors, 80% ofwhom are Board Certified in Hospice
      and Palliative Medicine. HHCRI employs over 300 staff and 350 volunteers. Dr. Edward
      Martin, HHCRI's ChiefMedical Officer, is nationally known in the field of hospice and
      palliative medicine and serves as a member ofNHPCO's Regulatory Committee.
  • 	 In May of2013, HHCRI was presented with a "Top 100 Award". This national award, given
      annually by Deyta LLC, a firm specializing in data-driven management ofhealthcare and
      quality measurement, is based upon 2012 results ofthe Family Evaluation ofHospice Care
      survey conducted monthly with more than 1,200 hospice agencies nationwide. HHCRI was
      ranked by families as one of the top 100 hospices in the country. Families rank Home &
      Hospice Care ofRhode Island at the very top when it comes to keeping them informed of
      their loved one's care, recommending us to others, responding to the needs of their loved
      ones and having the confidence in the care and service we provide.

  OIG Hulitar Inpatient Unit GIP Audit Findings
  The OIG report states that, with 3 exceptions, the review of documentation of GIP care and
  billing practices at HHCRI' s Philip Hulitar Inpatient Unit (Hulitar IPU) met auditor's criteria and
  expectations.

  The exceptions are as follows:

  1. 	 In the first exception, the OIG medical reviewer determined that a patient who was admitted
       to the inpatient unit in 2008 did not meet the criteria for hospice general inpatient care.
       HHCRI is not in agreement with this finding . HHCRI's ChiefMedical Officer, who was at
       HHCRI at the time this patient received care here, describes the patient's scenario as outlined
       by his medical history quite differently.
      The patient was admitted to HHCRI in 2008 after a long hospitalization at The Miriam and
      Rhode Island Hospitals . The patient had extensive gluteal and sacral skin breakdown that
      had resulted in osteomyelitis of the pelvis. The patient did not improve after weeks of
      antibiotics and it was felt the only treatment was to surgically remove the legs and pelvis, a
      hemi-pelvectomy. The patient refused this in spite of being told he would certainly die.
      The following is noted in the 2008 Rhode Island Hospital medical record discharge summary
      of this patient.
          "JD (sic - infoctious disease) recommended if no further surgery was going to be done that we
          stop the antibiotics since they were futile at this point. After numerous other discussions, the
          patient elected not to have surgery. Antibiotics were stopped. The patient understands
          that electing not to have surgery right now means that (the patient) will die. Dr. Adams
          explained in depth with the patient what kind ofdeath this could be including a slow painful
          death or a rapid one due to septic shock. The pros and cons as well as natural history of
Mr. David Lamir
Acting Regional Inspector General for Audit Services
Page 3
July 1, 2013



       untreated osteomyelitis was explained in explicit and vivid detail, which (the patient)
       acknowledged. "
   The infectious disease specialists, orthopedic surgeons and general surgeons all agreed the
   patient would die and for that reason the patient was admitted to hospice.
   HHCRI' s Chief Medical Officer provided care to this patient on the Philip Hulitar Inpatient
   Unit. He submitted the following statement:
       ''This was one ofthe most complex patients I have cared for in my 26 years as a hospice
       physician. The patient was admitted to our inpatient unit 3/1/08 for management ofsevere pain.
       The patient also had extensive wounds. The patient had to be hospitalized in an acute care
       hospital 3/ 3 and was readmitted to our facility 3/ 10. Jhe patient required titration of
       hydromorphone (Dilaudid) by a pump and a ketamine infUsion, an anesthetic used to control the
       most complex pain syndromes. This was increased slowly throughout the GIP stay. The patient
       had spasticity that ultimately on 511 required a continuous infUsion oflorazepam. On 5/5 the
       patient's family wanted to honor the patient's wishes to leave and go to the mall as the patient
       had not even been out ofbed in 2 months. The hospice team felt this was a poor plan and the
       patient was not given a day pass, but was discharged and left against medical advice. The
       patient returned that night 5/5 and was readmitted at the inpatient facility rather than insisting
       the patient be admitted to an acute care hospital. The patient was able to be transitioned home on
       518."
        "Throughout this stay this patient required complex wound management and highly complex pain
       management. It is noted in the report that patients at the GIP level "had a need for pain control
       or chronic symptom management beyond the routine home care level". It would be difficult to
       find a patient who had more complex pain and symptom management needs. Jhis care is
       documented extensively in the medical record. The fact that the patient left against medical
       advice for several hours 3 days before discharge does not change that. "
       "Even in retrospect, understanding the patient somehow survived this near certain fatal
       complication, the prognosis was clearly less than six months given the patient's complex and
       typically fatal clinical problems. "
   Due to the discrepancy between the patient medical record and the assessment of the state
   Medicaid reviewer, HHCRI respectfully reserves the right to discuss this one case with the
   medical reviewer.
2 . 	 In the second case, the OIG state medical reviewer determined that during the course of this
      2009 inpatient stay, the patient's care needs decreased to the level of routine hospice care.
      HHCRI accepts this finding.
3. 	 The third case contained in the report outlines a patient whose file was reviewed by the OIG
     and had five separately billed episodes of care with HHCRI in 2007. The OIG paid for four
     of the five GIP episodes of care but disallowed one episode of the patient's 2007 GIP billing
     due to a lack of documentation. HHCRI was able to produce hard copy medical record
     documentation covering four of the five episodes and the electronic portion of the medical
     record for the fifth period; but despite numerous attempts and searching, the file covering this
     one episode of care could not be located by the third party vendor which stores hard copy
Mr. David Lamir
Acting Regional Inspector General for Audit Services
Page 4
July 1, 2013



   medical records for IlliCRL IlliCRI accepts this finding. This will not be a repetitive
   concern because IlliCRI currently utilizes an electronic medical record for clinical
   documentation. In 2007, IlliCRI utilized a paper medical record.

HHCRI Response to the OIG Findings on Philip Hulitar Inpatient Unit
IlliCRI believes that billing for levels of care should accurately reflect the care needs of every
patient, every day and has instituted the following procedures to ensure that the appropriate level
of care is provided and billed for :

1. 	 Patients who are at the GIP level of care in the Philip Hulitar Inpatient Unit receive a daily
     review of the appropriateness of their remaining at that level of care.
2. 	 In the Philip Hulitar Inpatient Unit, patients are visited daily by board certified hospice
     physicians. Physicians document in their daily clinical note why the patient remains
     appropriate for GIP care.
3. 	 If a Hulitar patient (with any payer) is determined to no longer meet the GIP criteria, unit
     staff notify the hospice physician, request an order for a change in the level of care to routine
     hospice care and notify the Finance department via email that a billing change has occurred.
4. 	 If the patient is a Medicaid patient, the patient/family is informed that the patient no longer
     meets the care criteria. Discharge planning to an appropriate site of care for the level of care
     will commence immediately. Should a delay occur in patient transfer to a site for routine
     hospice care, Rhode Island Medicaid will be billed for the routine hospice level of care and
     the patient/ family will be notified in writing of their personal liability for the costs of care
     exceeding the routine hospice rate and will be billed for those costs. Despite multiple calls to
     the Rhode Island Medicaid office, the Medicaid staff was unable to state definitively whether
     Medicaid had an appeals process for non-coverage that was similar to the Medicare non­
     coverage NEMC or ABN process. Rhode Island Medicaid also was not aware if there was
     any right (or system) to appeal these notices should such a notice be served to a Medicaid
     patient or their caregiver.
5. 	 If the patient is a Medicare patient, and he/she no longer meets criteria for the GIP level of
     care; the patient/family receives an ABN notice regarding the change in their st atus, an
     explanation of their right/opportunity to appeal IlliCRI's decision, and a notice detailing any
     potential personal financial liability should they opt to pay out of pocket for the care. Should
     a delay occur in patient transfer to a site for routine hospice care, Medicare is billed at the
     routine daily rate and the patient/family is billed for those cost differentials.
6. 	 Current and future IlliCRI processes include tighter controls than in the past. Financial
     Services will develop the appropriate paperwork and workflow to support patient billing
     modifications and all inpatient staff and physicians will be re-educated to the expectations
     outlined in steps 1 through 5 above.
Mr. David Lamir
Acting Regional Inspector General for Audit Services
Page 5
July 1, 2013



OIG Long Term Care Facility GIP Audit Findings
The OIG requested 12 records for IffiCRI patients residing in long term care (LTC) facilities
between the years of2007 thru 2009, whose care had been elevated to the GIP level. The issues
in this area are not targeted to the care provided by IffiCRI to these patients residing in a long
term care facility but rather to the LTC facilities' ability to provide the level of services
contractually required when a patient at their facility was designated GIP level of care.
The report revealed that the OIG was unable to obtain from current Administrators at the
involved long term care facilities, written documentation that a long term care staff registered
nurse had been assigned to perform direct patient care for every shift that the patient had been
designated as GIP level of care. IffiCRI accepts these findings.

HHCRI Response to the OIG Findings on Hospice in the Long Term Care Facility
IffiCRI believes that long term care (LTC) facilities contracting for GIP level of care provision
must provide that care within all regulatory guidelines.

The issue identified by the OIG was not the care provided by IffiCRI to long term care GIP
patients during the years 2007, 2008 and 2009; the issue was the inability of the LTC facilities to
retrospectively document that during that time period there was a LTC facility registered nurse
assigned to provide care to IffiCRI GIP patients on every shift during the days billed at the GIP
level of care. It was IffiCRI's expectation that LTC facilities were providing required services as
dictated contractually. In 2012, prior to the OIG review beginning at IffiCRI, this organization
provided LTC GIP-focused education to our partnering LTC facilities. The goal ofthat education
was to clearly identify responsibilities of both parties when a hospice patient living in a LTC
facility is designated to the GIP level of care.

In light of the OIG findings, additional measures are being initiated to specifically target the
hospice/LTC GIP level of care billing issues identified .

1. 	 A contract review of all long term care facilities is underway. Issues of discussion include
     both the facility's ability to provide the required level of nursing care; and their willingness
     to document, and maintain documentation, of staffing and the increased level of care
     provided to GIP patients as a contractual provision for payment.
2. 	 IffiCRI is developing a new billing/payment sheet for long term care facilities to complete.
     This billing sheet will require that the LTC facility attests to having a registered nurse who
     was assigned to provide direct care on each shift to any resident that was receiving a GIP
     level hospice of care from IffiCRI. IffiCRI will also work to renegotiate contracts with long
     term care facilities to include language requiring this information prior to payment to the
     facility for GIP services.
3. 	 Face to face meetings will be set up with Administrators and/or the Directors ofNursing
     Care in facilities which are contracted to provide the GIP level of service. The new GIP
     processes and rationale for those processes will be reviewed and they will be able to discuss
' 	Mr. David Lamir
   Acting Regional Inspector General for Audit Services
   Page 6
   July 1, 2013



     their ability to comply with the regulations and document their compliance as a pre-requisite
     to receiving payment for GIP level of care days.

 When fully initiated, the measures noted above should prevent the identified issues from
 recumng.

  We thank you for the opportunity to respond to the concerns raised in the report and welcome
  any further suggestions you might have to promote regulatory compliance in this area.

  Sincerely,


 ~~Jfim~
 Diana Franchitto
 President & CEO
                       APPENDIX D: STATE AGENCY COMMENTS 





                                              Steven M. Costantino
                                     Secretary of Health and Human Services
                               STATE OF RHODE ISLAND AND PROVIDENCE PLANTATIONS
                                            57 Howard A venue, LP Building
                                                 Cranston, Rl 02920
                                                   401-462-5274

September 4, 20 13



Report Number: A-0 I- .13-00002

George A. Nedder
Acting Regional Inspector General for Audit Services
Office of Inspector General
Department of Health and Human Services
Jon F. Kennedy Building, Room 2425
Boston, MA 02203

Dear Mr. Nedder:

This letter responds to your request for written comments on the draft report entitled Medicaid
Hospice General Inpatient Payments to Home and Hospice Care of Rhode Island Did Not
Always Meet Federal and State Requirements.

We concur with the findings and will:

•       refund $17, 114 to the Federal Government
•       w rk with our fiscal agent to issue guidance to hospices so that billing requirements are
clarified; and
•       perfonn additional medical reviews ofho pice general inpatient care services performed
in the nursing home setting.

Thank you for the opportunity to comment. If you have any questions, please do not hesitate to
contact Elena N icolella at 401.462.0854 or ENicolella@ohhs.ri.gov.




              ct/!2£1
    teveo M. CoStantino. Secretary



SMC/lcs
